Executive Report
Return to the USDOJ/OIG Home Page
Offices, Boards, and Divisions Annual Financial StatementFiscal Year 1998
Report No. 99-30September 1999Office of the Inspector General
COMMENTARY AND SUMMARY
The Offices, Boards and Divisions (OBDs) of the Department of Justice include U.S. Attorneys, U.S. Trustees, Office of Community Oriented Policing Services (COPS), Executive Office for Immigration Review, Legal Activities and General Programs.  Some of the OBDs responsibilities include representing the American people in all legal matters involving the United States Government, supervising the administration of bankruptcy cases and private trustees in the Federal Bankruptcy Courts, upholding the civil rights of all Americans, enforcing laws to protect the environment, and safeguarding the consumer from fraudulent activity.  In FY 1998, the OBDs had funding of approximately $4 billion.
This audit report contains the Annual Financial Statement of the OBDs for the fiscal year ended September 30, 1998.  The audit was performed by PricewaterhouseCoopers LLP and resulted in a disclaimer of opinion on the FY 1998 consolidated balance sheet and the related consolidated statements of net cost, changes in net position, budgetary resources, and financing.  The disclaimer resulted from the auditors being unable to apply sufficient audit procedures to determine whether:
other assets ($432.3 million), accounts payable ($1,157.7 million), unexpended appropriations and net program costs were fairly stated because the OBDs management did not provide sufficient documentation to demonstrate that those balances were not materially affected by errors in the methodology or data used to calculate them; and
amounts reported in the FY 1998 statements of net cost, changes in net position, budgetary resources, and financing were fairly stated.  It was not practical for the auditors to extend their audit procedures during the audit of the OBDs FY 1998 financial statements to satisfy themselves as to opening balance amounts (a disclaimer of opinion was issued on the OBDs FY 1997 statement of financial position).
The OBDs also received a disclaimer of opinion on its financial statements for FY 1997 and FY 1996.  Although the OBDs have undertaken corrective actions to rectify the reportable conditions noted in prior years' audits, much work remains to be completed as all four of the reportable conditions noted for FY 1997 continue to exist: advances and accrued expenditures for grants provided by COPS, accrual-based accounting principles, year-end financial closing processes, and security controls over the Financial Management Information System.  For FY 1998, the advances and accrued expenditures for grants finding was upgraded to a material weakness, while the security controls finding was downgraded from a material weakness.
The OBDs noted as part of its overview to the financial statements that significant progress has been made in ensuring that all mission critical systems are
Year 2000 compliant and that the Department is at minimal risk as the Year 2000 approaches.  The Office of the Inspector General is unable to provide any assurance as to whether all mission critical systems will be compliant or that the Department is at minimal risk.
For FY 1998, new reporting formats required by Office of Management and Budget Bulletin No. 97-01, Form and Content of Agency Financial Statements, were implemented.  For FY 1998, the OBDs prepared a balance sheet, statement of net cost, statement of changes in net position, statement of budgetary resources, and statement of financing.  For FY 1997, however, the OBDs prepared a statement of financial position and statement of operations and changes in net position.  Accordingly, comparative financial statements are not presented or required for FY 1998.